    IG’s 

Semiannual 

  Report 

to Congress



 March 2008
                                                        CONTENTS


From the Inspector General....................................................................................................................................1


Major Challenges for the Department.................................................................................................................. 3


            2010 Decennial Census............................................................................................................................. 3

            Department-wide Information Security................................................................................................. 5

            NTIA’s Administration of $2.5 Billion for Grants and Digital TV Converter Coupons............... 6

            NOAA’s High-Risk Environmental Satellites.........................................................................................7

            Protecting and Conserving Our Oceans and Living Marine Resources............................................ 9


            Work in Progress........................................................................................................................................ 9


Agency Overviews

            National Institute of Standards and Technology.................................................................................11

            National Oceanic and Atmospheric Administration...........................................................................13

            United States Patent and Trademark Ofﬁce.........................................................................................17

            Department-Wide Management............................................................................................................19


Ofﬁce of Inspector General

            Ofﬁce of Investigations...........................................................................................................................25

            Other OIG Activities...............................................................................................................................26

            Tables and Statistics..................................................................................................................................28

            Reporting Requirements..........................................................................................................................35

Copyright Jim Pruitt/www.istockphoto.com

The Washington Monument and the famous cherry blossoms.
                       FROM THE 

                  INSPECTOR GENERAL

We are pleased to present the Department of                   the Census Bureau was encountering in developing
Commerce Ofﬁce of Inspector General’s Semiannual              handheld computers that could support major ﬁeld
Report to Congress for the 6 months ending March 31,          operations. As you know, the bureau has since aban­
2008.                                                         doned plans to use these devices for collecting data
                                                              from people who do not return mailed questionnaires.
This is the ﬁrst semiannual report issued by my ofﬁce         Instead, the bureau will use paper forms as it has in
since my conﬁrmation as Inspector General this past           the past.
December. In the short time since then, I have met
extensively with senior ofﬁcials from the various bu­         Reverting to paper processes so late in the decade
reaus within the Department. I have been impressed            poses new challenges and is certain to add to the
by the diversity of Commerce’s many critical missions         ﬁnal costs of the decennial, as the bureau must re­
and by the strong appreciation Secretary Gutierrez            tool numerous systems and procedures to handle the
and his top ofﬁcials have for the role of the Inspector       change. As part of our decennial census oversight,
General and the importance of oversight.                      we will closely monitor how the bureau accomplishes
                                                              this major operational shift. We will promptly inform
This report summarizes the work we have completed             Congress, Secretary Gutierrez, and Census ofﬁcials of
and initiated during this semiannual period on a num­         our ﬁndings to ensure that any problems we identify
ber of important departmental activities, for example,        are addressed expeditiously.
NOAA’s progress on the latest Geostationary Opera­
tional Environmental Satellites and its efforts to pro­       I wish to thank Secretary Gutierrez and his man­
tect marine resources under the National Marine Sanc­         agement team for their support during this time of
tuary Program; real property at NOAA and personal             transition for the Ofﬁce of Inspector General. It is
property management at USPTO; and the outcomes                a privilege to serve as Commerce IG. I look forward
of the annual ﬁnancial statements audits for the De­          to a productive partnership with the Department and
partment and USPTO. In addition, our investigative            Congress in ensuring sound operations Department-
activities resulted in 14 convictions and more than           wide.
$12 million in ﬁnes, restitutions, and recoveries.

We had the opportunity in February to brief Congress
on what we consider to be the highest risk programs
and activities within Commerce. First on our list was
the 2010 decennial census—speciﬁcally, the problems




                                                          1
Photo by OIG

One of the many exquisite architectural details of the exterior of the Herbert C.
Hoover Building, Commerce’s headquarters.
                 MAJOR CHALLENGES 

                FOR THE DEPARTMENT

The Reports Consolidation Act of 2000 requires                 the Department’s mission or the nation’s well-being,
inspectors general to identify the top management              their sizable resource or ﬁnancial requirements, or
challenges facing their departments. At the close of           their need for large-scale management improvements.
FY 2007, Commerce OIG had identiﬁed 10 areas that              These challenges provide the focus for much of our
posed signiﬁcant challenges to departmental man­               work, as we assess the Department’s progress in ad­
agement because of their complexity, importance to             dressing them.

                                                               During this semiannual period, our completed and in-
 TOP 10 MANAGEMENT CHALLENGES                                  progress work has focused on critical programs and
      (As reported in the FY 2007 Department of Commerce       operations within ﬁve of the challenge areas: the Cen­
              Performance and Accountability Report)
                                                               sus Bureau’s 2010 decennial operations (challenge 1),
  1. Control the cost and improve the accuracy of              Department-wide IT security (challenge 2), NTIA’s
     the decennial census.                                     management of $2.5 billion in funding for the digi­
  2. Strengthen Department-wide information 
                  tal television conversion program and interoperable
     security.
                                                communications grants (challenge 4), NOAA satel­
                                                               lites (challenge 6), and NOAA’s stewardship of oceans
  3. Effectively manage departmental and bureau                and living marine resources (challenge 8).
     acquisition processes.
  4. Strengthen internal controls over ﬁnancial, 

     programmatic, and business processes.
                    Major Setback for 2010 Decennial
  5. Ensure that USPTO uses its authorities and                Census Operations
     ﬂexibilities as a performance-based organization
     to achieve better results.                                This past April, Secretary Gutierrez informed Con­
                                                               gress that the Census Bureau was abandoning plans to
  6. Effectively manage the development and 
                  automate a major decennial operation—nonresponse
     acquisition of environmental satellites.
                 follow-up—a signiﬁcant setback in its efforts to re-
  7. Promote U.S. exports and fair competition in              engineer decennial operations. During nonresponse
     international trade.                                      follow-up, a half-million temporary workers go door-
  8. Effectively manage NOAA’s stewardship of
                 to-door in communities around the nation to collect
     ocean and living marine resources.
                       census data from households that do not mail back
                                                               their questionnaires. The bureau had intended to
  9. Aggressively monitor emergency prepared­                  equip these workers with handheld computers as part
     ness, safety, and security responsibilities.
             of a redesign of traditional census-taking operations
 10. Enhance export controls for dual-use 
                    proposed at the conclusion of Census 2000. Ofﬁcials
    commodities.
                                              believed such reengineered processes would improve



                                                           3
Major Challenges for the Department                                                                        March 2008—Semiannual Report to Congress




         data accuracy while containing costs. Initial estimates                             tion, insufﬁciently deﬁned requirements for the ﬁeld
         of costs for the entire 2010 decennial program were                                 systems have plagued their development. Although
         roughly $11.5 billion over the course of the decade.                                primarily intended as a proof of concept, the Cen­
         But the problems encountered in developing needed                                   sus-developed prototype handhelds did not perform
         handheld capabilities and the cost of reverting to pa­                              adequately in the 2004 and 2006 census tests. The bu­
         per processes and retooling associated systems and                                  reau subsequently had to delay the start of the 2008
         procedures at this late date are expected to add up to                              dress rehearsal address canvassing operation in hopes
         $3 billion to the ﬁnal decennial tab.                                               of improving the devices’ performance, yet the hand­
                                                                                             helds and other critical systems continued to have
                                                                                             serious problems, including crashes, slow response
                                                                                             times, and lost data.

                                                                                             The bureau still intends to use the handheld comput­
                                                                                             ers for address canvassing in Census 2010, but will
                                                                                             now need to equip only 140,000 temporary work­
                                                                                             ers with handhelds instead of 500,000 workers. Yet
                                                                                             FDCA costs—originally estimated at $600 million—
                                                                                             may more than double to $1.3 billion, even after elim­
                                                                                             inating automated nonresponse follow-up.

                                                                                             Inattention to Other Operations
                                                                                             Automation problems have consumed an inordinate
                                                                                             amount of the bureau’s efforts, to the detriment of
                                                                                             other decennial areas that need attention—such as
                                                                                             paper-based operations targeting hard-to-count pop­
                                                                                             ulations (American Indians living on reservations, the
                                                                    U.S. Census Bureau       homeless, etc.).

        The Census Bureau’s plans to automate key decennial operations have been             The inadequate outcome we reported in the bureau’s
        beset by problems developing the handheld computers and related systems. As
                                                                                             2006 test of paper-based procedures for counting
        a result, the devices’ role in the 2010 Census will be much more limited than
        originally intended.                                                                 reservation populations is a case in point. Our evalu­
                                                                                             ation found that, despite long-standing challenges to
         Long-Standing Problems with                                                         producing accurate reservation counts, Census ﬁeld
         System Development                                                                  staff had a hard time locating housing units because
         Our work throughout the decade has documented a                                     the bureau’s maps were poor and the address lists
         host of technical problems with the handheld systems,                               incorrect. In the same test, a revision to the survey
         which were ﬁrst developed by Census as prototypes                                   designed to improve the accuracy of the count for
         for the 2004 and 2006 tests and are being developed                                 this traditionally undercounted population identiﬁed
         for the decennial under the Field Data Collection Au­                               only one additional person who might otherwise have
         tomation (FDCA) contract.                                                           been missed. (See September 2007 Semiannual Report,
                                                                                             page 25.)
         The bureau had determined in early 2004 to contract
         for the systems because it did not have the in-house                                We have additional concerns with the ongoing 2008
         resources to develop them. But it took nearly 2 years                               dress rehearsal. During this ﬁnal test, the bureau was
         to award the contract. We reported in 2005 that this                                supposed to conduct most decennial operations at
         late decision and initial slow pace in planning the                                 two representative sites. But it cut the number of
         acquisition shortened the amount of time available                                  tested processes by half to focus on the handheld
         for developing and testing the handhelds. In addi­                                  computers and related automated systems. Census
                                                                                             attributed the cut to FY 2008 funding problems.


                                                                                         4
March 2008—Semiannual Report to Congress                                                                Major Challenges for the Department




       However, the decision to eliminate the handheld com­            hiring the estimated 1.33 million temporary employ­
       puters for nonresponse follow-up has left the bureau            ees needed to run the decennial. If ﬁngerprinting is
       without enough time to plan a paper-based dress re­             required, it could cost the bureau hundreds of mil­
       hearsal; thus testing of the largest operation of the           lions of dollars to purchase equipment and supplies
       decennial has been cancelled.                                   and hire and train staff to conduct the ﬁngerprinting.
                                                                       Hiring for the decennial starts in 2009, yet money to
       Other signiﬁcant paper-based operations, including              cover the cost of ﬁngerprinting was not included in
       group quarters enumeration, homeless enumeration,               the President’s 2009 budget request. It is critically im­
       and update/leave (in which temporary workers update             portant that this issue be resolved promptly.
       the address list and maps and leave a Census ques­
       tionnaire at each housing unit), were excluded from             Department-wide Information Security
       dress rehearsal. Without testing these operations, the
       bureau has no data against which to assess and im­
                                                                       The Federal In­
       prove them, and this increases the risk for problems
                                                                       formation Security
       during the actual census. Such problems could reduce
                                                                       Management Act
       accuracy if people are missed in the count or increase
                                                                       (FISMA) and OMB
       costs if additional temporary workers are needed to
                                                                       policy require agen­
       meet decennial deadlines.
                                                                       cies to certify that
                                                                       their systems and
       As the bureau retools nonresponse follow-up, it must
                                                                       data are protected
       ensure that it has sufﬁcient management structures
                                                                       with       adequate,
       and plans in place to address and troubleshoot these
                                                                       functioning security
       other critical operations. We will closely monitor its
                                                                       controls before au­
       efforts in this regard.
                                                                       thorizing (accredit­
       Uncertainty Regarding Background Checks
                                                                       ing) the system to
       for Temporary Staff                                             operate. For the past
                                                                       7 years, informa­
       In previous decennials, the bureau obtained criminal            tion security has
       history records for temporary decennial applicants              been reported as a http://csrc.nist.gov/publications/CSD_DocsGuide.pdf
       using only a name check. This procedure checks the              material weakness
       applicant’s name, social security number, and date of           at the Department, NIST published this guide in 2007 to give
       birth against the FBI’s database of criminal histories.         despite fairly sub- IT security professionals a consolidated listing
       The Census Bureau has reported that its use of name                                      of the more than 250 NIST documents per­
                                                                       stantial spending to taining to information security. The section on
       checks during the last two decennials was an effective          secure its 300-plus certiﬁcation and accreditation alone lists 28
       way to screen a large volume of applicants at a reason­         information      sys- documents—many of them required reading
       able cost without disrupting recruitment or hiring.             tems. Commerce’s for federal C&A teams.
                                                                       IT security budget
       In the years since the last decennial, there have been          for FY 2008 totals $131 million—roughly 7 percent
       questions about whether the bureau will be required             of its nearly $1.8 billion IT budget.
       to submit ﬁngerprints of its temporary decennial job
       applicants in order to get the criminal history infor­          The material weakness is the result of insufﬁcient
       mation it had previously accessed with only a name              certiﬁcation and accreditation (C&A) processes: year
       check. To date, there has been no ﬁnal determination            after year, our reviews of the Department’s C&A ef­
       as to whether the bureau will need to submit ﬁnger­             forts ﬁnd a process that does not adequately identify
       prints for temporary job applicants.                            and assess needed controls. As a result, authorizing of­
                                                                       ﬁcials do not have the information they need to make
       As the 2010 decennial approaches, the uncertainties             sound decisions for allowing systems to operate, and
       regarding this issue increase the risks to the operation,       some systems are at risk for compromise.
       both in terms of the cost and the logistics involved in


                                                                   5
Major Challenges for the Department                                                       March 2008—Semiannual Report to Congress




        Expanded Focus for FY 2008 C&A Review               NTIA’s Administration of $2.5 Billion
        This year’s FISMA work entails reviews of C&A pack­ for Grants and Digital TV Converter
        ages for selected systems from the Bureau of Eco­ Coupons
        nomic Analysis, Ofﬁce of the Secretary, Census Bu­
                                                                           Congress enacted the Digital Television Transi­
        reau, National Institute of Standards and Technology,
                                                                           tion and Public Safety Act of 2005 to switch televi­
        National Oceanic and Atmospheric Administration,
                                                                           sion broadcasting to all-digital signals, freeing up
        and U.S. Patent and Trademark Ofﬁce. But our focus
                                                                           airwaves for advanced wireless services and to en­
        has broadened to accommodate anticipated changes
                                                                           able police, ﬁre and rescue departments, and oth­
        to NIST Special Publication 800-37, Guide for the Se­
                                                                           er ﬁrst responders to contact each other faster and
        curity Certiﬁcation and Accreditation of Federal Information
                                                                           more reliably. Under the act, NTIA will receive
        Systems.
                                                                           up to $1.5 billion to help analog television view­
                                                                           ers access digital TV when the switch occurs, and
        NIST ofﬁcials say the update will place greater em­
                                                                           $1 billion to fund grants for interoperable communi­
        phasis on agencies’ efforts to continuously monitor
                                                                           cations projects through 2010.
        security controls as part of the C&A process. Con­
        tinuous monitoring is designed to ensure that agencies
                                                                           Digital TV Converter Coupon Program
        make appropriate adjustments to security controls and
        the security plan as changes to the system or external                                                Congress has set
        environment occur. So in addition to our traditional                                                  February 17, 2009,
        review of the information produced by the system se­                                                  as the ﬁrm date that
        curity certiﬁcation process, we are assessing continu­                                                television broadcast­
        ous monitoring activities. We also will assess security                                               ing will become all-
        controls on a sample of system components to deter­                                                   digital. With the tran­
        mine if the controls are implemented correctly, oper­                                                 sition, the 15 million
        ating as intended, and meeting the system’s security                                                  households that still
        requirements.                                                                                         rely exclusively on
                                                                                                              analog signals will
        In determining whether a system has been adequately                                                   lose service unless
        certiﬁed and accredited, we will consider the ﬁndings                                                 they buy digital-to­
        of the C&A evaluation, the success of continuous                                                      analog       converter
                                                                                                      NTIA
        monitoring, and the implementation of security con­                                                   boxes or digital TVs,
        trols on system components. The emphasis on con­                                                      or subscribe to cable
        tinuous monitoring is part of a strategy that OIG and              or satellite service. NTIA will use the $1.5 billion al­
        the Ofﬁce of the Chief Information Ofﬁcer (OCIO)                   located for this program to distribute coupons worth
        are collaboratively developing to improve C&A and                  $40 each to help defray the cost of the converters
        resolve the material weakness.                                     (which range in price from $40 to $70). NTIA has
                                                                           contracted with IBM to operate the program, which
        Another aspect of the strategy is to jointly develop               includes integrating the systems and implementing
        test cases for selected operational and technical con­             procedures for distributing and redeeming coupons
        trols to assist bureaus in improving their IT security             and for certifying retailers. These systems must be
        testing. OCIO has also begun to implement the Justice              able to handle the potentially large volume of transac­
        Department’s Cyber Security Assessment and Man­                    tions if the program is to be effective.
        agement tool to standardize the C&A process. We
        have established a 2-year implementation time frame                The agency began taking orders for coupons on Janu­
        with completion targeted for the end of calendar year              ary 1, 2008, and rolled out the nationwide distribu­
        2009.                                                              tion/redemption operation in February, after IBM
                                                                           pilot tested the systems. We monitored that test, in
                                                                           which a limited number of consumers received and



                                                                       6
March 2008—Semiannual Report to Congress                                                                                    Major Challenges for the Department





                                                                                                                                                                OIG

       The events of 9/11 exposed serious weaknesses in critical emergency communications networks. Since then, most federal agencies have developed state-of-the-art
       emergency communications centers. The Digital Television Transition and Public Safety Act provides grants to help state and local jurisdictions improve their
       interoperable communications capabilities.

       redeemed the coupons. The test revealed some pro­                                 management annually and to conduct at least 25 ﬁnan­
       cesses and procedures that required ﬁne-tuning.                                   cial audits of grants made under the program over the
                                                                                         next 4 years.
       The operation’s true test will be its nationwide execu­
       tion. By early April, more than 5.2 million households                            The act also requires NTIA to consult with the Depart­
       had ordered some 9.9 million coupons (a household                                 ment of Homeland Security (DHS) in establishing and
       may order 2 coupons). At this writing, some 300,000                               implementing the program. DHS has provided NTIA
       had been redeemed. With less than a year remaining                                with grants management services and technical assis­
       before the transition deadline, NTIA’s senior manage­                             tance. In September 2007, all 50 states, the District of
       ment must closely monitor the success of coupon dis­                              Columbia, and the ﬁve American territories received
       tribution and redemption to ensure that all American                              grant funds that they will in turn make available to eli­
       viewers are digital ready by February 2009.                                       gible public safety organizations for approved projects.

       Our Ofﬁce of Investigations has already worked with                               We have worked closely with NTIA, DHS, and the
       NTIA to resolve some questionable activity related                                states and territories to ensure they understand the au­
       to the coupon program, such as noncertifed retail­                                dit issues and federal requirements. We are currently
       ers offering to redeem coupons. We will continue to                               monitoring the grant award process and reviewing ap­
       monitor the program’s administration, with a particu­                             plications, allocation formulas, and awards. Given the
       lar focus on its efﬁciency and the agency’s efforts to                            amount of funds involved, the critical importance to
       mitigate fraud.                                                                   public safety of using them as effectively as possible,
                                                                                         and the relative inexperience of NTIA in administer­
       Public Safety Interoperable Communications                                        ing a program of this size, we consider this a major
       (PSIC) Grant Program                                                              watch item.
       The $1 billion PSIC grant program is a huge under­
       taking for NTIA. Before this initiative, the agency’s                             NOAA’s High-Risk Environmental
       primary experience administering grants had been                                  Satellite Programs
       with the Public Telecommunications Facilities Pro­
       gram, whose FY 2008 funding availability is just
                                                                                         NOAA is in the midst of modernizing its environ­
       $16.8 million, and the discontinued Technology Op­
                                                                                         mental monitoring capabilities, spending billions of
       portunities Program, which from 1994 through 2004
                                                                                         dollars on two critical satellite systems: the National
       made grants totaling $233 million. We are closely
                                                                                         Polar-orbiting Operational Environmental Satellite
       monitoring NTIA’s implementation of the PSIC ini­
                                                                                         System (NPOESS) and the next-generation Geosta­
       tiative. We are required by law to audit the program’s


                                                                                     7
Major Challenges for the Department                                                                          March 2008—Semiannual Report to Congress




        tionary Operational Environmental Satellite (GOES­                                     Radiometer Suite (VIIRS), which is intended to collect
        R). The $12.5 billion NPOESS project will provide                                     images and data on the Earth’s clouds, atmosphere,
        continuous weather and environmental data for civil­                                  oceans, and land surfaces.
        ian and military needs through the coming 2 decades.
        The $7.7 billion GOES-R system will offer an unin­                                    The restructuring of the NPOESS program was com­
        terrupted ﬂow of high-quality data for weather fore­                                  pleted in 2007. The revamped program calls for more
        casting, severe storm detection, and climate research                                 rigorous management controls and oversight, and a
        through 2028.                                                                         more objective incentive payment play for the con­
                                                                                              tractor.
        NPOESS: Cost Overruns, Schedule Delays,
        Reduced Capabilities                                                                  Despite these changes, problems with VIIRS contin­
        We previously described the challenges facing the                                     ue, which means that the launch date for a pilot mis­
        troubled National Polar-orbiting Operational Envi­                                    sion to test the new VIIRS instruments and bridge any
        ronmental Satellite System (NPOESS) in our Sep­                                       gaps in data may be pushed further back while the risk
        tember 2006 and September 2007 semiannual reports                                     of cost growth increases.
        (pages 29 and 10, respectively). This joint project of
        NOAA, NASA, and the Department of Defense will                                        Untested Management Structure for GOES-R
        be a critical element in the nation’s ability to provide                              GOES-R is wholly funded by Commerce, though the
        continuous weather and environmental data for civil­                                  satellites will be developed and acquired jointly with
        ian and military needs through the coming 2 decades.                                  NASA. The Department’s investment in GOES-R
                                                                                              for ﬁscal years 2009 to 2013 is projected to be about
        The project had to be restructured in 2006 after cost                                 $3.7 billion.
        estimates increased and launch dates slipped. Much
        of the cost increase was attributable to problems de­                                 The structure of the program has introduced a new
        veloping a key sensor, the Visible/Infrared Imager                                    element of risk: NOAA has the lead management role
                                                                                              over the entire project (ground and space segments)
                                                                                              for the ﬁrst time, giving the Department direct over­
                                                                                              sight authority as well. These are roles for which nei­
                                                                                              ther has experience.

                                                                                              We evaluated whether NOAA and the Department
                                                                                              have established effective mechanisms for handling
                                                                                              their expanded responsibilities. We found that they had
                                                                                              not adopted some crucial best practices for managing
                                                                                              satellite acquisitions. We concluded these omissions
                                                                                              cost the agency time and money and recommended,
                                                                                              among other things, that Commerce and NOAA bring
                                                                                              GOES-R oversight and management practices in line
                                                                                              with those used by NASA and the Department of
                                                                                              Defense in satellite acquisitions, and that the Depart­
                                                                                              ment delegate decision-making authority at key deci­
                                                                                NOAA
                                                                                              sion points to NOAA. (See page 19.)
        The $81 million NOAA Satellite Operations Facility opened in June 2007.
        It’s an underground “green” building, with a grass roof covering 146,000              Since our review the Secretary of Commerce del­
        square feet. The 208,000-square-foot facility houses nearly 550 employees of          egated key decision-making authority to the NOAA
        NOAA, contract companies, and other agencies, and more than $50 million
                                                                                              administrator while retaining overall oversight of the
        worth of equipment. Sixteen antennas control more than $4.7 billion worth
        of environmental satellites. The facility currently is preparing to support the       program. NOAA exercised this authority in January
        GOES-R and NPOESS satellite systems.                                                  2008, authorizing release of requests for proposals for
                                                                                              the spacecraft and ground system. Also, NOAA agreed


                                                                                          8
March 2008—Semiannual Report to Congress                                                                  Major Challenges for the Department




       to follow appropriate NASA oversight and manage­
       ment procedures for the GOES-R program. NOAA
       and NASA have deﬁned these procedures in a joint
       management plan, which now includes additional key
       decision points and a distinguished independent re­
       view team that conducts assessments and advises the
       agency. While these actions are major steps, proper ex­
       ecution of this next phase is crucial: the Department
       and NOAA must be vigilant in overseeing contractors
       and managing systems development against cost and
       schedule goals.

       We will continue to monitor cost, schedule, and tech­
       nical progress on both GOES-R and NPOESS and
       report our ﬁndings in future semiannual reports.

       Protecting and Conserving Our Oceans
       and Marine Resources
                                                                                                                                            NOAA


       This NOAA mission represents a huge federal invest­           DART™ monitoring systems are positioned at strategic locations throughout
                                                                     the ocean and play a critical role in tsunami forecasting. Each deployed system
       ment: more than $1 billion is spent annually on ma­           can detect and relay real-time data about tsunamis as small as 1 centimeter.
       rine-related protection and conservation programs.

       During this semiannual period, we issued a report on          We are assessing the Department’s and USPTO’s ad­
       NOAA’s management of the National Marine Sanctu­              herence to these requirements as well as their prog­
       ary Program, which encompasses more than 158,000              ress in implementing administrative, technical, and
       square miles of ocean and Great Lakes marine habi­            physical controls for protecting personally identiﬁable
       tats. We identiﬁed the need for greater enforcement           information.
       of regulations protecting the sanctuaries, and several
       areas in which improved management and interagency            National Data Buoy Center
       cooperation would enhance operations and advance              NOAA’s National Data Buoy Center operates three
       the goals of the sanctuary protection program (see            buoy systems and a network of coastal marine ob­
       page 13).                                                     serving stations that provide critical weather and en­
                                                                     vironmental data to scientists, weather forecasters,
                                                                     commercial shippers, recreational boaters, and others.
       Work in Progress                                              They are maintained by Science Applications Interna­
                                                                     tional Corporation under a service contract worth up
       Privacy Program                                               to $500 million over 10 years.

       The E-Government Act of 2002 requires agencies                We are evaluating (1) the maintenance and repair op­
       to (1) conduct “privacy impact assessments” to ver­           erations for the buoys; (2) the adequacy and reliability
       ify that personal information from or about individ­          of the buoy data; (3) the structure and administration
       ual citizens that is collected or otherwise processed         of the support services contract; and (4) the transition
       by federal IT systems is sufﬁciently protected; and           of two buoy programs from research to operations.
       (2) develop privacy notices explaining their practices
       for handling information and post these notices on-
       their web sites.




                                                                 9
Major Challenges for the Department	                                             March 2008—Semiannual Report to Congress




        Fisheries Finance Loan Program                            Decennial Census Dress Rehearsal
        We are auditing the direct loan portion of this NOAA      The dress rehearsal is under way in San Joaquin Coun­
        program, which accounts for $412 million of the total     ty, California, and nine North Carolina counties. These
        amount of loans approved since the program’s incep­       locations offer both urban and rural conditions under
        tion in FY 1997. Our audit is assessing the following     which to test census operations.
        aspects of the loan program:
                                                                  We originally planned to assess the address canvass­
        1.	 Effective use of funding.                             ing operation, including the readiness of supporting
        2.	 Coordination with ﬁshery management councils          automated systems, to determine whether canvassers
            to ensure loans support NOAA goals for ending         properly followed canvassing procedures and made
            overﬁshing, eliminating overcapacity, and rebuild­    appropriate corrections to the address list using the
            ing ﬁsheries.                                         handheld computers. We have modiﬁed our scope in
                                                                  response to the bureau’s decision to limit the use of
        3.	 Metrics for determining whether performance           the handheld devices: our review now focuses on the
            measures have been met.                               extent to which address canvassing improved address
        4.	 Internal controls for minimizing risk of ﬁnancial     list accuracy.
            loss to the government and for ensuring compli­
            ance with federal legislation.
        5.	 Processes for verifying that borrowers and proj­
            ects meet eligibility and other program require­
            ments.

        Commerce’s Congressional Earmarks
        We are analyzing the cost, oversight, and impact of
        FY 2006 congressional earmarks at the Department in
        response to a 2006 request from the then-chairman of
        the Senate Subcommittee on Federal Financial Man­
        agement, Government Information, and International
        Security. We are examining a sample of 32 earmarks to
        ascertain how their administration compares with that
        of other grants.




                                                             10
    NATIONAL INSTITUTE OF 

 STANDARDS AND TECHNOLOGY


T
        he National Institute of Standards and Technology promotes U.S. innovation and industrial com­
        petitiveness by advancing measurement science, standards, and technology in ways that enhance eco­
        nomic security and improve quality of life. NIST manages four programs: the Advanced Technology
Program, the Manufacturing Extension Partnership program, the Baldrige National Quality Program, and NIST
Research Laboratories.



Nearly $900,000 Questioned                                 respectively, with the company’s total required share
                                                           set at $31,208.
in Biotech Firm’s Project
Performance                                                We found the recipient did not fully comply with
                                                           award terms and conditions: among other things, it
In September 2003, NIST awarded an Advanced                had awarded a contract that was outside the scope
Technology Program (ATP) cooperative agreement             of the project and could not substantiate a variety
to a Maryland company to develop genetically engi­         of materials costs and salary expenses. We therefore
neered caterpillars capable of producing therapeutic       questioned $880,453 in costs claimed. We recom­
human proteins at far faster rates then currently pos­     mended that NIST disallow this entire amount and
sible. These proteins are used in a variety of medica­     recover $647,273 in excess federal disbursements.
tions that treat autoimmune diseases. The company          (Ofﬁce of Audits: CAR-18440)
estimated that accelerating production of the proteins
would lower drug development costs by $140 mil­
lion per medication and shorten the time to market
for new drugs. Estimated costs for the 3-year project
totaled $2,031,208, with the federal share capped at
$2 million (98.46 percent) of allowable costs.

We audited costs claimed by the recipient for the
3-year period of the award (October 1, 2003, through
September 30, 2006), examined the company’s annual
audit reports and its compliance with laws and regula­
tions, and evaluated internal controls for its procure­
ment and accountability systems. The approved budget
for direct costs during the ﬁrst year of the award to­                                                      www.sxc.hu/Photo No. 597169
taled $777,284 with no match. Approved costs for the
                                                               In September 2003, NIST awarded a 3-year ATP cooperative agreement to
second and third years were $846,101 and $407,823,             a company to research using caterpillars to grow human proteins.




                                                          11
Photo by C. Clark/NOAA

NOAA’s National Weather Service captured this image of
multiple cloud-to-ground and cloud-to-cloud lightning strikes
during a night thunderstorm.
                                                                     TMOSPHE
                                                                 ND A       RIC
                                                               CA               AD
                                                             NI




                                                         A
                                                       CE




                                                                                 M
                                                                                  INI
                                                     LO




                                                                                     STR
                                              NATIONA




                                                                                        ATION
                                                                                CE
                                                   U.
                                                       .D                        R




                                                     S
                                                             EP
                                                               ART             ME
                                                                  M ENT OF COM




   NATIONAL OCEANIC AND 

ATMOSPHERIC ADMINISTRATION


T       he National Oceanic and Atmospheric Administration studies climate and global change; ensures
        the protection of coastal oceans and the management of marine resources; provides weather services;
        and manages worldwide environmental data. NOAA does this through the following organizations:

National Weather Service reports the weather of the United States and provides weather forecasts and warnings
to the general public.

National Ocean Service provides products, services, and information that promote safe navigation, support
coastal communities, sustain marine ecosystems, and mitigate coastal hazards.

National Marine Fisheries Service conducts a program of management, research, and services related to the
protection and rational use of living marine resources.

National Environmental Satellite, Data, and Information Service observes the environment by operating a national
satellite system.

Ofﬁce of Oceanic and Atmospheric Research conducts environmental research, provides scientiﬁc information
and research leadership, and transfers research into products and services to help NOAA meet the evolving
economic, social, and environmental needs of the nation.

Ofﬁce of Program Planning and Integration develops and coordinates NOAA’s strategic plan, supports organiza­
tion-wide planning activities, guides managers and employees on program and performance management, and
integrates policy analyses with decision-making.


Marine Sanctuary Program                                                  National Ocean Service, manages the system under a
                                                                          program designed to protect and enhance each sanc­
Fulﬁlling Its Mission But Could                                           tuary’s biodiversity and ecological integrity.
Improve Resource Protection
                                                                          Historically, the sanctuaries have had modest budgets,
The National Marine Sanctuary System, established                         limited staffs, and few assets. The FY 2008 enacted
by the Marine Protection, Research, and Sanctuaries                       appropriation for the National Marine Sanctuary
Act of 1972, comprises 13 marine sanctuaries and one                      Program (NMSP) was $61 million. The President’s
national monument that have conservation, scientiﬁc,                      FY 2009 budget calls for roughly $50 million, but this
or historical signiﬁcance. The Ofﬁce of Ocean and                         level is still well below the program’s funding peak of
Coastal Resource Management, located in NOAA’s                            $67.8 million in FY 2005.



                                                                    13
National Oceanic and Atmospheric Administration                                                     March 2008—Semiannual Report to Congress




                                                                                    believe current law enforcement presence in the sanc­
                                                                                    tuary system is insufﬁcient to meet these challenges.

                                                                                    We also found that most sanctuary ofﬁcials do not
                                                                                    routinely receive information about the nature and
                                                                                    scope of ongoing and closed sanctuary violation
                                                                                    cases from NOAA’s Ofﬁce of General Counsel for
                                                                                    Enforcement and Litigation and OLE. Without such
                                                                                    information, ofﬁcials cannot appropriately target en­
                                                                                    forcement resources or public outreach activities. We
                                                                                    recommended that NOAA’s Ofﬁce of General Coun­
                                              NURC/UNCW and NOAA/FGBNMS             sel provide the sanctuary program with non-law en­
                                                                                    forcement sensitive information pertaining to ongo­
         A ball of rope sponge living in the Flower Garden Banks National Marine
                                                                                    ing and closed cases (including the type of regulations
         Sanctuary in the Gulf of Mexico off the Texas coast.
                                                                                    violated, date and location of violations, and penalties
                                                                                    assessed and collected).
        We evaluated the sanctuary program to see if it is pro­
        viding long-term protection for marine and cultural
                                                                                    Sanctuary Management
        resources and effectively collaborating with the Na­
        tional Ocean Service and other NOAA ofﬁces, and
                                                                                    Each sanctuary is required by statute to develop a
        with federal, state, and local entities. We also assessed
                                                                                    management plan and to review and update it every
        the efﬁciency with which selected activities are con­
                                                                                    5 years. We found that staff at nearly all the sanctu­
        ducted.
                                                                                    aries have not reviewed their plans in over 10 years,
                                                                                    although program managers are currently devoting
        We found that the sanctuary program is generally ful­
                                                                                    additional resources to completing the reviews. We
        ﬁlling its mission. It has successfully protected cer­
                                                                                    recommended that managers complete these reviews
        tain components of marine ecosystems and certain
                                                                                    promptly.
        cultural resources; and effectively complements other
        federal, state, and local resource protection efforts
                                                                                    We also found that prior to the FY 2008 budget pro­
        by offering beneﬁts other laws or regulations do not.
                                                                                    cess, the sanctuary program failed to plan for life-cycle
        However, we identiﬁed a few areas where the program
                                                                                    costs for new vessels, data buoys, and visitor centers,
        could be improved.
                                                                                    particularly those that were acquired with one-time
                                                                                    congressional funding. Program managers need to de-
        Enforcement of Sanctuary
        Regulations
                                                                                          Spotlight on Sanctuaries
        The National Marine Fisheries Service’s Ofﬁce for Law
        Enforcement (OLE) has primary law enforcement re­                             National marine sanctuaries range in size from one-
        sponsibility for the sanctuary program. OLE works                             quarter square mile in American Samoa’s Fagatele Bay
        closely with the U.S. Coast Guard and, where possible,                        to more than 5,300 square miles in Monterey Bay, Cali­
        a number of state and territorial marine enforcement                          fornia. At 138,000 square miles, Papahanaumokuakea
        agencies under joint enforcement agreements. En­                              Marine National Monument—added in 2006—is the
                                                                                      largest marine protected area in the world. The sanc­
        forcement challenges in the sanctuaries range from
                                                                                      tuaries and marine monument encompass more than
        permit compliance to offshore vessel trafﬁc to a range                        158,000 square miles of ocean and Great Lakes habi­
        of natural resource injuries. Another challenge is that                       tats and include deep ocean and near-shore coral reefs,
        many sanctuaries are located at considerable distances                        whale migration corridors, deep sea canyons, areas of
        from shore making them difﬁcult to routinely patrol                           deep water upwelling, seamounts, kelp forests, and sea
        because of the transit time to reach them. A number                           grass beds. Historic shipwrecks are also part of the
        of sanctuary and enforcement ofﬁcials told us they                            system.



                                                                               14
March 2008—Semiannual Report to Congress                                                                National Oceanic and Atmospheric Administration




                                                                                          delayed reviews of several sanctuary management
                                                                                         plans and drawn public antipathy. We were told dis­
                                                                                         sension within NOAA has compromised the agency’s
                                                                                         ability to gain or maintain public trust. We recom­
                                                                                         mended that leadership ofﬁcials from the National
                                                                                         Ocean Service, Marine Sanctuary Program, and Fish­
                                                                                         eries Service commit to improved dialogue and coor­
                                                                                         dination, and take action to improve working relation­
                                                                                         ships across the board.

                                                                                         NOAA generally concurred with our recommenda­
                                                                                         tions and reported a series of actions it plans to take
                                                                                         and a timeline for implementing them. (Ofﬁce of Inspec­
                                                                            NOAA         tions and Program Evaluations: IPE-18591)
       Volunteers for the seal program at the Gulf of the Farallones National
       Marine Sanctuary in California gather on the beach for a training session.

       termine how to cover these costs for existing equip­                              NOAA Could Strengthen
       ment and centers.                                                                 Controls over Real Property
       Coordination with Partners
                                                                                         Management
                                                                                         NOAA has a portfolio of more than 3,000 properties,
       Most sanctuaries have active outreach and education
                                                                                         consisting of 1,477 parcels of land, 824 buildings, and
       programs to promote public awareness of marine
                                                                                         721 other structures. NOAA’s buildings alone have a
       resources, and they actively collaborate with a broad
                                                                                         current replacement value of nearly $4 billion (exclud­
       range of research partners, such as universities, other
                                                                                         ing the value of the land they occupy). This portfolio
       federal agencies, and nongovernmental organizations.
                                                                                         is both diverse and dispersed—ranging from state-of­
       Partners do much of the research, monitor resourc­
                                                                                         the-art marine science and research facilities to opera­
       es, and provide data needed by the sanctuary sites.
                                                                                         tional facilities that support multibillion-dollar satellite
       But they need to do a better job of communicating
                                                                                         programs.
       research results to the public and key constituencies.
                                                                                         We reviewed NOAA’s management controls over its
       We found that by improving coordination with several
                                                                                         real property portfolio to identify ways in which the
       other NOAA ofﬁces and with the Navy, the sanctu­
                                                                                         agency could enhance management accountability for
       ary program could leverage additional resources that
                                                                                         these assets. We also evaluated (1) NOAA’s compli­
       would enhance marine protection activities. But im­
                                                                                         ance with Executive Order (EO) 13327, “Federal Real
       proved coordination with the National Marine Fish­
                                                                                         Property Asset Management” (see p. 16), (2) the reli­
       eries Service is most imperative. We found that the
                                                                                         ability of computer-processed data produced by the
       sanctuaries and Fisheries Service generally collabo­
                                                                                         agency’s Integrated Facility Inspection Program, and
       rate well to protect and manage endangered species
                                                                                         (3) the NOAA Real Property Management Division’s
       and marine mammals, and remove marine debris and
                                                                                         FY 2006 survey of real property holdings.
       derelict gear. But the relationship can become conten­
       tious when NMSP proposes to regulate ﬁshing within
                                                                                         We found that in the past several years, NOAA has
       a sanctuary’s boundaries.
                                                                                         strengthened management of its real property port­
                                                                                         folio, but could improve some management controls
       Persistent disagreements and lack of communica­
                                                                                         and its compliance with EO 13327, particularly with
       tion among sanctuary personnel, ﬁshery management
                                                                                         regard to the following issues:
       councils, and the Fisheries Service have considerably




                                                                                    15
National Oceanic and Atmospheric Administration	                                                     March 2008—Semiannual Report to Congress




                                                                                 without a legal agreement puts NOAA at risk for los­
                    Executive Order 13327                                        ing these favorable terms, increasing its leasing and
             The federal government owns hundreds of billions                    related expenses, or perhaps even dealing with the
             of dollars in real property assets, and either owns                 costs and disruptions of relocating operations.
             or manages 1 in every 4 acres of land in the United
             States. Much of the federally owned real property as­               Integrated Facilities Inspection Program Database. In order
             sets are used to support agency missions, but it is not             to report on real property conditions as required by
             clear how many of these properties are being used ef­               EO 13327, the Property Management Division’s In­
             ﬁciently, how many are underused, or how many are                   tegrated Facilities Inspection Program (IFIP) surveys
             no longer needed.                                                   employees in NOAA’s line ofﬁces regarding the cur­
             EO 13327 directs agencies to                                        rent condition of various facilities. Their responses are
             •	    Establish the position of a senior real property              retained in a database. As part of the survey process,
                   ofﬁcer, who will be accountable for the effective             the division calculates a facility condition index by di­
                   management of the agency’s real properties;                   viding the estimated cost of an asset’s repair needs by
                                                                                 its current replacement value. The lower the index, the
             •	    Determine what they own, what they need, and
                   how and what it costs to manage their real prop­              better the condition of the asset.
                   erties;
                                                                                 Property Management’s FY 2006 survey generated fa­
             •	    Develop and implement asset management
                                                                                 cility condition indexes that were signiﬁcantly greater
                   plans;
                                                                                 than 100 percent for 13 of 670 properties. Estimated
             •	    Develop and monitor real property performance                 costs to repair a property should not exceed its re­
                   measures; and
                                                                                 placement value unless the structure is in such bad
             •	    Dispose of unneeded properties.                               shape that it would be cheaper to replace than to re­
                                                                                 pair. We urged NOAA to investigate the anomalies
        Holdover Leases. NOAA’s lease agreements generally                       and determine if they were attributable to data entry
        contain an option for renewal under the initial lease                    errors.
        terms, provided the government gives written notice
        of its intention to renew 30 days prior to the agree­                    We also urged NOAA to continue monitoring its use
        ment’s expiration. This option allows the agency to                      of property and adhere to OMB guidance for dispos­
        lock in favorable rates and other terms. If NOAA fails                   ing of unneeded assets because such properties are
        to exercise this option, the leases go into “holdover”                   costly to maintain. Our report did not contain formal
        status, during which time NOAA pays rent month-to­                       recommendations. (Ofﬁce of Audits: BSD-18256)
        month while renegotiating terms.

        The number of leases in holdover status is extensive
        and growing. In January 2006, a real estate services
        ﬁrm hired to evaluate the Property Management
        Division’s lease portfolio reported 127 such leases.1
        NOAA disclosed that by September 2006, this num­
        ber had increased to 318. And the consulting ﬁrm re­
        ported that 1,199 agreements would expire between
        2006 and 2010, with the majority (627) expiring in
        2006 and 2007. Many of the leases represent relatively
        small dollar amounts or rent-free arrangements. But
        Property Management still needs a strategy to address
        the growing backlog. Occupying leased property                                                                                                OIG

         1
             Lease Portfolio Evaluation, presentation to NOAA’s Real Property    The National Weather Service’s Northeast River Forecast Center in Mas­
             Management Division by Jones Lang LaSalle, January 2006.            sachusetts is one of NOAA’s 3,000 real properties that support critical
                                                                                 mission activities.



                                                                            16
     UNITED STATES PATENT AND 

        TRADEMARK OFFICE


T       he United States Patent and Trademark Ofﬁce administers the nation’s patent and trademark laws.
        Patents are granted and trademarks registered under a system intended to provide incentives to invent,
        invest in research, commercialize new technology, and draw attention to inventions that would oth­
erwise go unnoticed. USPTO also collects, assembles, publishes, and disseminates technological information
disclosed in patents.




USPTO Property Management                                      in departmental initiatives. Current controls include a
                                                               system that tracks property from receipt to disposal;
Procedures Need Improvement                                    quarterly inventories and certiﬁcations of accountable
                                                               property; a quality control program; physical security
We audited the effectiveness of USPTO’s internal               that includes locking assets; a property review board
controls over laptops and other accountable property           that addresses lost, missing, and stolen property; and
after a similar audit we conducted at the U.S. Census          performance plans that establish accountability for
Bureau last year found improvements were necessary             property ofﬁcials. USPTO also has an asset manage­
despite initiatives to strengthen such controls. (See          ment team that meets regularly to discuss accountable
September 2007 Semiannual Report, pages 23-25.) The            property issues and potential solutions. The team has
Census audit was prompted by Commerce’s Septem­                recommended changes to improve the quarterly in­
ber 2006 announcement that 1,138 laptops had been              ventory process, coordinated the installation of mo­
lost Department-wide in a 5-year period, 672 of which          bile data security technology on USPTO laptops, and
belonged to Census.                                            provided input on USPTO’s proposed asset manage­
                                                               ment web site.
Like Census, USPTO has substantial accountable
property assets. Approximately 20 percent of these             Despite these many controls, the agency needs to
assets (mostly computer equipment) are located off-            strengthen inventory procedures to ensure that it
site supporting telework programs. All USPTO per­              (1) conducts inventories as stipulated in the Department
sonnel are responsible for the proper use, care, and           Personal Property Management Manual, (2) assigns prop­
protection of personal property in their possession            erly trained personnel to perform inventories, (3) has
or control, but overall responsibility resides with the        readily accessible policies and procedures relating to
property management ofﬁcer within USPTO’s Ofﬁce                accountability over personal property assets, (4) con­
of Corporate Services.                                         ducts an appropriate quality assurance review of the
                                                               inventory, and (5) segregates inventory duties.
Since the fall of 2006, USPTO has supplemented its
internal control structure with new controls put forth         In addition, USPTO should strengthen its procedures



                                                          17
United States Patent and Trademark Office	                                         March 2008—Semiannual Report to Congress





                                                                    KPMG Renders Clean Opinion
                           Quick Facts
                             on FY 2007 Financial Statements
           •	 As of November 2007, USPTO owned about                Potential Violation of Anti-Deficiency
              84,000 pieces of accountable property (such           Act Under Review
              as laptop computers, personal computers,
              copiers, and fax machines) valued at approxi­         Independent auditor KPMG rendered an unqualiﬁed
              mately $154 million.                                  opinion on USPTO’s FY 2007 ﬁnancial statements
                                                                    and reported that the agency continues to maintain a
           •	 USPTO has approximately 18,000 use-at­
                                                                    sound internal control structure that supports prepa­
              home assets valued at approximately $13 mil­
                                                                    ration of reliable ﬁnancial and performance informa­
              lion.
                                                                    tion.

                                                                    The audit disclosed a potential instance of noncom­
         for addressing lost, missing, or stolen property by ex­    pliance with the Anti-Deﬁciency Act and the Patent
         cluding property management ofﬁcials from property         and Trademark Fee Fairness Act of 1999: in FY 2005,
         review boards.                                             obligations related to processing patent applications
                                                                    temporarily exceeded patent fees collected. As a re­
         USPTO concurred with our recommendations and de­           sult, fees intended for use in processing trademark
         scribed actions it was taking to address them. For ex­     registrations were used temporarily to fund patent
         ample, the agency (1) expanded property accountability     obligations. The Department’s Ofﬁce of General
         training to include all individuals who support a prop­    Counsel is reviewing this matter to determine whether
         erty custodian; (2) established an asset management        it constitutes a violation of the Anti-Deﬁciency and
         web site; and (3) developed a plan to notify property      Fee Fairness acts.
         accountability ofﬁcers that they must verify the inven­
         tory of property assigned to their property custodians.    As part of the ﬁnancial statement audit, KPMG
         (Ofﬁce of Audits: CAR-18701)                               assessed general controls for the agency’s IT systems
                                                                    used to process and maintain key ﬁnancial data against
                                                                    criteria in GAO’s Federal Information System Controls
                                                                    Audit Manual (FISCAM). KPMG found that USPTO
                                                                    had resolved one weakness reported last year—in the
                                                                    area of access controls. One weakness continues to
                                                                    be reported in the area of service continuity. Eleven
                                                                    new FISCAM weaknesses were identiﬁed—four in
                                                                    the area of entity-wide security program planning
                                                                    and seven in access controls. (Financial Statements and
                                                                    Accountability Audits: FSD-18531-1 and -2)




                                                               18
                     DEPARTMENT-WIDE

                       MANAGEMENT


T       he United States Department of Commerce creates the conditions for economic growth and oppor-
        tunity by promoting innovation, entrepreneurship, competitiveness, and stewardship. The Department
        has three stated strategic goals:
         Goal 1: Provide the information and tools to maximize U.S. competitiveness.
         Goal 2: Foster science and technological leadership by protecting intellectual property, enhancing 

         technical standards, and advancing measurement science. 

         Goal 3: Observe, protect, and manage the Earth’s resources to promote environmental stewardship. 

The Department has also established a Management Integration Goal that is equally important to all bureaus:
Achieve organizational and management excellence.



GOES-R Setbacks Caused by                                Because of problems in prior GOES acquisitions,
                                                         NOAA initially decided to use a new acquisition ap­
Lack of Standard Satellite                               proach for GOES-R: award of a single prime contract
Acquisition Practices                                    for the space and ground segments. This was a sig­
                                                         niﬁcant departure from previous GOES acquisitions,
NOAA and NASA are 7 years into the planning              which used separate contracts for each segment and
and development of the next series of Geostation­        NASA as the systems integrator. This change, coupled
ary Operational Environmental Satellites—dubbed          with the Department and NOAA’s expanded oversight
GOES-R—which provide the United States with              and management roles, added risk to an already highly
critical meteorological data for weather observation,    complex undertaking.
research, and forecasting. NOAA, rather than NASA,
has the lead role in GOES-R’s program management         In October 2005, at a key decision point in the program
and acquisition, thus giving the Department direct       (decision point “B”), the Secretary approved the award
oversight authority for both the ground and space        of three contracts for program deﬁnition and risk re­
segments. Neither the Department nor NOAA has            duction. At that time, GOES-R costs were estimated
experience in this role.                                 to be $6.2 billion. Roughly 7 months into the program
                                                         deﬁnition phase, new cost data prompted NOAA to
In 2007, we evaluated whether NOAA and the De­           revise the estimate to $11.4 billion. An independent
partment had established effective mechanisms for        review team subsequently conﬁrmed that the new es­
handling their expanded responsibilities and found       timate was accurate and expressed concerns about the
they had not adopted some crucial best practices for     acquisition approach. At about the same time, prob­
managing satellite acquisitions.                         lems with the National Polar-orbiting Operational En­



                                                        19
Department-wide Management                                                                            March 2008—Semiannual Report to Congress




                                                                                      than prescribed by standard satellite acquisition pro­
                                                                                      cesses and without the beneﬁt of a comprehensive
                                                                                      program assessment and independent reviews. Such
                                                                                      assessments and reviews are key to the NASA model.
                                                                                      Without them, Department and NOAA ofﬁcials did
                                                                                      not have the information they needed to make sufﬁ­
                                                                                      ciently informed decisions about the path forward for
                                                                                      GOES-R, namely, thorough and accurate evaluations
                                                                                      of cost, schedule, technological readiness, acquisition
                                                                                      strategy, and risks. An independent assessment of the
                                                                                      program began some 7 months after decision point
                                                                                      B, ultimately conﬁrming escalating cost estimates,
                                                                                      unacceptable risks, and a ﬂawed acquisition strategy.
                                                                                      The changes that followed cost the agency time and
                                                                                      money: millions to redeﬁne the overall system archi­
                                                                                      tecture and management structure, and a 9-month de­
                                                                                      lay in the planned schedule for awarding the space and
                                                                                      ground contracts.

                                                                                      GOES-R Plan Needs Additional
                                                                                      Key Decision Points

                                                                           NASA        In NASA and DOD space acquisition processes, de­
                                                                                      cision point C occurs at the completion of preliminary
       Artist’s rendering of the ﬁrst hyperspectral imager. This instrument was
       launched into space aboard a NASA satellite in 2000 and has since
                                                                                      design, and a subsequent decision point (D) is con­
       produced thousands of images of volcanoes and other features of the Earth’s    ducted before the system is built. At the time of our
       surface for a variety of military and civilian uses. NOAA had planned to       review, GOES-R was roughly 2 years from completing
       equip GOES-R with enhanced hyperspectral instruments but scrapped the          preliminary design and even further from being ready
       plan because it was proving too technically challenging and costly.
                                                                                      to build the ﬁrst satellite, but its ﬁnal planned decision
                                                                                      point (a combined decision point C/D) was to occur
        vironmental Satellite System (NPOESS) were putting
                                                                                      soon. Its purpose was to obtain Department authori­
        pressure on NOAA and Commerce to reassess the ap­
                                                                                      zation for releasing solicitations for the multibillion-
        proach to GOES-R. In response, NOAA revised the
                                                                                      dollar space and ground segment contracts. Particu­
        acquisition strategy to more closely align with the tra­
                                                                                      larly in light of the signiﬁcant program changes since
        ditional approach: NOAA would acquire the ground
                                                                                      key decision point B, it was essential for the Depart­
        segment and NASA would acquire the satellites and
                                                                                      ment and NOAA to thoroughly review all aspects of
        integrate the systems. But NOAA would retain acqui­
                                                                                      the program in order to make well-informed decisions
        sition decision authority and the lead role in program
                                                                                      about how to proceed before releasing the solicita­
        management. To reduce costs, NOAA eliminated sev­
                                                                                      tions—giving strong consideration to the ﬁndings and
        eral planned satellites and instruments.
                                                                                      recommendations from the independent assessments.
                                                                                      However, after decision point C/D, we recommended
        Commerce Officials Had Insufficient                                           that the Department plan for and conduct additional
        Program Information for First Key                                             key decision point reviews in accordance with NASA’s
        Decision Point Review                                                         procedures to determine GOES-R’s readiness to pro­
                                                                                      ceed to subsequent phases. And if key decision point
        Viewed by the Department and NOAA solely as a                                 authority were to be delegated to NOAA, the Depart­
        procurement milestone, key decision point B was held                          ment needed to clearly delineate its authorities as well
        at a much earlier stage in the program’s life cycle                           as those of NOAA.



                                                                                 20
March 2008—Semiannual Report to Congress                                                                     Department-wide Management




       The Department Must Align
       Independent Review Procedures
       With Those of NASA

       Commerce lacks adequate capacity and experience for
       effective oversight of the highly technical and complex
       issues of space acquisitions, and it has no independent
       reviewers. Therefore, the Department should consult
       directly with NOAA and NASA independent review­
       ers at each decision point to help identify any serious
       program weaknesses and determine the best path for­
       ward for GOES-R. The Department should require
       documentation and explanation for any decisions
       made on the basis of assumptions or ﬁndings that dif­
       fer from those of the independent assessments. In ad­
       dition, both the Department and NOAA should use
       NASA Procedural Requirement (NPR) 7120.5D for
       satellite acquisition as guidance to better focus these
       reviews on the key objectives and products of each
                                                                                                                                  NOAA
       program phase.
                                                                  This giant antenna at the Command and Data Acquisition Station located
       NOAA Has Not Adapted Relevant                              at Wallops Island, VA, transmits commands to the GOES satellites and
                                                                  downloads data from them. Wallops Island is the primary ground station
       NASA Processes to GOES-R Ground                            interface with GOES satellites.
       System Acquisition

       The GOES-R memorandum of agreement between                 Response from the Department
       NOAA and NASA stipulates that the space segment            and NOAA
       will be managed according to NPR 7120.5D, but the
       agreement is silent on NOAA’s use of the directive
                                                                  The Department disagreed with certain of our ﬁnd­
       for the ground segment. NOAA needs to deﬁne how
                                                                  ings and with our recommendation that it implement
       these processes will apply to that segment and to the
                                                                  procedures similar to NASA’s for key decision point
       overall program. We recommended that NOAA de­
                                                                  reviews. The Department suggested instead that ap­
       scribe in the GOES-R management control plan, how
                                                                  plication of NASA’s procedural guidance is more ap­
       it will use NASA’s procedural guidelines to manage
                                                                  propriately the role of NOAA. Accordingly, we rec­
       and oversee the overall program as well as the ground
                                                                  ommended that decision authority for key decision
       segment. NOAA should plan and document its ap­
                                                                  points be delegated to NOAA. NOAA subsequently
       proach for handling key decision points.
                                                                  sought and received decision-making authority. In
                                                                  January 2008 it exercised this authority for decision
       The Department lacks procedures for reporting and
                                                                  point C/D.
       approving major deviations from plans. Commerce
       has not described its requirements and procedures
                                                                  NOAA concurred with the recommendations di­
       for reporting and managing variances for GOES-R,
                                                                  rected to the Under Secretary for Oceans and At­
       or determined thresholds for holding special decision
                                                                  mosphere and revamped its acquisition management
       reviews when considering program enhancements. We
                                                                  and oversight procedures. (Ofﬁce of Systems Evaluation:
       recommended the Department establish thresholds
                                                                  OSE-18291)
       and procedures for reporting and approving major de­
       viations from GOES-R’s capability, cost, and schedule
       baseline, as well as enhancements to the baseline.



                                                                 21
Department-wide Management                                                             March 2008—Semiannual Report to Congress





       FY 2007 Consolidated Financial                                   Noncompliance with Anti-Deficiency
                                                                        Act Largely Resolved
       Statements Earn Clean Opinion
                                                                        As mentioned earlier, the FY 2005 audit reported
       For the 9th consecutive year, the Department received
                                                                        that the Department’s Ofﬁce of General Counsel had
       an unqualiﬁed opinion on its consolidated statements,
                                                                        identiﬁed a real property agreement between NOAA
       and its ﬁnancial management systems were in full
                                                                        and a nonproﬁt entity that contained an indemniﬁca­
       compliance with the Federal Financial Management
                                                                        tion clause. The clause was in violation of the Anti-
       Improvement Act of 1996. However, independent
                                                                        Deﬁciency Act because it constituted an open-ended
       auditor KPMG noted continuing deﬁciencies in infor­
                                                                        obligation of government funds.
       mation technology controls that together constitute a
       signiﬁcant deﬁciency. Commerce was also cited for one
                                                                        NOAA subsequently identiﬁed another 81 agreements
       instance of noncompliance with the Anti-Deﬁciency
                                                                        containing indemniﬁcation clauses or provisions in­
       Act in connection with an indemniﬁcation clause con­
                                                                        volving questionable liability. The Department’s Ofﬁce
       tained in a NOAA contract, which was identiﬁed in
                                                                        of General Counsel determined that these agreements
       the FY 2005 audit.
                                                                        also constituted violations of the Anti-Deﬁciency Act.
                                                                        The Secretary reported these violations to the Presi­
       Weaknesses in Financial Systems                                  dent, Congress, and the Comptroller General as re­
       Controls Persist                                                 quired by 31 USC § 1517(b). Our FY 2007 audit found
                                                                        that 79 of these agreements have been amended, ter­
       The auditors assessed general IT controls over the De­           minated, or allowed to expire, and NOAA is taking
       partment’s major ﬁnancial reporting systems against              action to correct the 3 remaining.
       the six criteria in GAO’s Federal Information System Con­
       trols Audit Manual, ﬁnding weaknesses in all six areas—
       entity-wide security, security access controls, applica­
                                                                        “Special Purpose” Statements Also
       tion software development and change control, system
                                                                        Receive Clean Opinion
       software, segregation of duties, and service continuity.
                                                 Effective general
                                                 IT controls are        As part of the FY 2007 consolidated audit, KPMG
                                                 essential to ensur­    examined Commerce’s special purpose ﬁnancial state­
                                                 ing the integrity      ments and assessed the Department’s compliance with
                                                 and reliability of     ﬁnancial reporting requirements stipulated in the Trea­
                                                 data used to pre­      sury Financial Manual. The Treasury Department uses
                                                 pare and report        the audited special purpose statements to prepare the
                                                 ﬁnancial informa­      Financial Report of the U.S. Government. KPMG rendered
                                                 tion. Weaknesses       an unqualiﬁed opinion on the special purpose state­
                                                 in these controls      ments and reported no material weaknesses in internal
                                                 have been a prob­      control over ﬁnancial reporting and no instances of
                                                 lem for Commerce       noncompliance with the Treasury manual. (Special­
                                                 since 1998, though     purpose statements include the reclassiﬁed balance
                                                 each year the De­      sheet, statements of net cost and of changes in net
                                                 partment has taken     position, and accompanying notes.) (Financial State­
       The Department reports the ﬁndings of our steps to strengthen    ments and Accountability Division: FSD-18530-1, -2, -3)
       ﬁnancial statements audits in its annual
                                                 them
        Performance and Accountability Report.




                                                                   22
March 2008—Semiannual Report to Congress                                                           Department-wide Management





       Preaward Financial Assistance                                         Preaward Screening Results
       Screening
                                                                                      Award
                                                                     Results                             Amount
       As part of our ongoing emphasis on prevention of                               Number
       fraud, waste, and abuse, we continue to work with            Awards
       the Ofﬁce of Acquisition Management, NOAA and                delayed
       NIST grant ofﬁces, and EDA program ofﬁces to                                       4             $ 2,662,775
                                                                    to resolve
       screen the Department’s proposed grants and co­              concerns
       operative agreements before they are awarded. Our
       screening serves two functions: it provides informa­
       tion on whether the applicant has unresolved audit          Nonfederal Audit Activities
       ﬁndings and recommendations on earlier awards, and
       it identiﬁes any negative ﬁnancial or investigative his­    In addition to undergoing OIG-performed audits,
       tory on individuals or organizations connected with a       certain recipients of Commerce ﬁnancial assistance
       proposed award.                                             are periodically examined by state and local govern­
                                                                   ment auditors and by independent public accountants.
       On January 1, 2004, we implemented new policies             OMB Circular A-133, Audits of States, Local Govern­
       and procedures for our preaward screening process.          ments, and Non-Proﬁt Organizations, sets forth the au­
       OIG and the Department determined that there are            dit requirements for most of these audits. For-proﬁt
       several categories of recipients for whom the costs         organizations that receive Advanced Technology
       and administrative burden of the screening process          Program funds from NIST are audited in accordance
       may well outweigh the government’s risk of ﬁnancial         with Government Auditing Standards and NIST Pro­
       loss. Our new policies exempt from review, recipients       gram-Speciﬁc Audit Guidelines for ATP Cooperative
       who (1) receive awards of $100,000 or less, (2) have        Agreements, issued by the Department.
       received ﬁnancial assistance from the Department for
       3 or more consecutive years without any adverse pro­        We examined 166 audit reports during this semian­
       gram or audit ﬁndings, or (3) are units of a state or       nual period to determine whether they contained any
       local government.                                           audit ﬁndings related to Department programs. For
                                                                   82 of these reports, the Department acts as oversight
       During this period we screened 17 proposed                  agency and monitors the audited entity’s compliance
       awards. For 4 of the awards, we found major deﬁ­            with OMB Circular A-133 or NIST’s program-spe­
       ciencies that could affect the ability of the pro­          ciﬁc reporting requirements. The other 84 reports are
       spective recipients to maintain proper control              from entities for which other federal agencies have
       over federal funds. On the basis of the informa­            oversight responsibility. We identiﬁed 14 with ﬁndings
       tion we provided, the Department delayed all                related to the Department.
       4 awards to resolve concerns. (Ofﬁce of Audits)




                                                              23
Department-wide Management                                                               March 2008—Semiannual Report to Congress




                                                                          We identiﬁed a total of $2,978,303 in federal ques­
                           OMB            ATP-                            tioned costs and $104,711 in funds to be put to better
           Report                       Program-
                           A-133                           Total          use. In most reports the subject programs were not
          Category                      Speciﬁcs
                           Audits                                         considered major programs; thus the audits involved
                                         Audits                           limited transaction and compliance testing against
         Pending                                                          laws, regulations, and grant terms and conditions.
         (October            26               3                 29        The 14 reports with Commerce ﬁndings are listed in
         1, 2007)                                                         Appendix B-1. (Regional Ofﬁces of Audits)
         Received           130              37             167

         Examined           131              35             166
         Pending
         (March 31,          25               5                 30
         2008)

       The following table shows a breakdown by bureau
       of approximately $397 million in Commerce funds
       audited.

                    Bureau                         Funds

         EDA                                   $ 60,285,111

         ITA                                          367,523

         NIST*                                     67,021,273

         NOAA                                      75,250,694

         NTIA                                       2,013,157

         Ofﬁce of the Secretary                        12,018

         USPTO                                        795,815

         Multiagency                              191,488,396

                   Total                       $ 397,233,987
        * Includes $65,257,379 in ATP program-speciﬁc audits.




                                                                     24
OFFICE OF INSPECTOR GENERAL


T       he mission of the Ofﬁce of Inspector General is to promote economy, efﬁciency, and effectiveness
        and detect and prevent waste, fraud, abuse, and mismanagement in the programs and operations of
        the U.S. Department of Commerce. Through its audits, inspections, performance evaluations, and
investigations, OIG proposes innovative ideas and constructive solutions that lead to positive changes for the
Department. By providing timely, useful, and reliable information and advice to departmental ofﬁcials, the
administration, and Congress, OIG’s work helps improve Commerce management and operations as well as its
delivery of services to the public.



Ofﬁce of Investigations                                        pay restitution of $1,797,557 each.

                                                               Since its inception nearly 5 years ago, our investiga­
Telemarketing Fraud Investigation
                                                               tion has netted 36 arrests, 29 convictions, and nearly
Continues to Produce Convictions,
                                                               $12 million in ﬁnes, forfeitures, and restitution. Some
Fines, and Imprisonment                                        9,600 people have fallen victim to the scam, which
                                                               was perpetrated by callers posing as agents of a bo­
An ongoing OIG investigation of a major interna­               gus national lottery purportedly sanctioned by the
tional telemarketing fraud scheme based in Costa Rica          Department of Commerce and other federal agen­
(see September 2007 Semiannual Report, page 50) re­            cies. Victims were persuaded to wire money to various
sulted in additional arrests and convictions this semi­        locations in Costa Rica, purportedly to cover insur­
annual period. On January 31, 2008, a key defendant            ance and customs fees required to redeem cash prizes
was convicted by a jury in U.S. District Court for the         supposedly worth up to $4 million. Identiﬁed losses
Western District of North Carolina on one count of             to U.S. residents total more than $30 million to date.
conspiracy to commit wire fraud and 22 counts of               (Atlanta Field Ofﬁce)
wire fraud. The jury also found him liable for criminal
forfeitures totaling more than $8.4 million. The de­
fendant faces a potential sentence of 30 years to life         Former Commerce Intern Convicted
in prison and payment of restitution to victims of the         of Credit Card Fraud
fraud. A sentencing date has not been set.
                                                               In January 2008, a former intern of the Department
Four other participants in the scheme also were ar­            was convicted of felony credit card fraud in Fairfax
rested during this period, and 10 defendants entered           County, Virginia, Circuit Court after a joint OIG/Fair­
guilty pleas on conspiracy and wire fraud charges. In          fax County Police investigation established that he had
addition, 2 defendants previously convicted of con­            fraudulently used the government travel card account
spiracy, wire fraud, and making false statements were          numbers of several senior Commerce employees
sentenced to 10 years’ incarceration and ordered to            and other personal credit card numbers to purchase



                                                          25
Office of Inspector General                                                         March 2008—Semiannual Report to Congress




                                        thousands of dollars         March 2008, the jury found the defendant guilty of
                                        worth of international       ﬁrst degree murder, and hewas sentenced to 35 years’
                                        plane tickets and ho­        imprisonment. Data recovered during the OIG analy­
                                        tel accommodations           sis helped establish motive. (Computer Crimes Unit)
                                        through an Internet
                                        travel site. Sentenc­        OIG Aids Money Laundering
                                        ing is scheduled for         Prosecution of Census Contractor
                                        May 2008. (Silver Spring
                                        Resident Ofﬁce)              During this period, we provided assistance to Immi­
                                                                     gration and Customs Enforcement (ICE) with the in­
                                                                     vestigation of a Census Bureau contractor suspected
                                                                     of laundering the proceeds of illegal drug deals. On
                                                                     December 11, 2007, the defendant was tried in U.S.
         NOAA Employee Sentenced on                                  District Court for the District of Columbia and found
                                                                     guilty of one count of conspiracy to launder mon­
         Purchase Card Fraud
                                                                     etary instruments. Sentencing was scheduled for April
                                                                     2008. ICE has also been working with the General
         As reported in our September 2007 Semiannual Report
                                                                     Services Administration to debar the defendant and
         (page 49), in August 2007, a NOAA employee was
                                                                     his CPA ﬁrm from obtaining future government con­
         convicted of theft of government property after an
                                                                     tracts. (Washington Field Ofﬁce)
         OIG investigation found he had used his government
         purchase card to charge nearly $4,000 worth of per­
         sonal items including cigarettes, beer, gift cards, CDs,
         video games, and a television. On November 14, 2007,
         the defendant was sentenced in U.S. District Court
                                                                     Other OIG Activities
         for the Southern District of Mississippi to 2 years’
         probation and ordered to pay $3,938.80 in restitution.      IG Briefs House Subcommittee
         (Denver Resident Ofﬁce)                                     on Oversight Priorities
         OIG Forensic Analysis Contributes to                        On February 27, 2008, Commerce Inspector General
         Successful State Murder Prosecution                         Todd J. Zinser briefed the House Subcommittee on
                                                                     Commerce, Justice, Science, and Related Agencies
         In our September 2007 Semiannual Report (page 51),          about OIG’s oversight operations at the Department,
         we described assistance provided by our Computer            emphasizing the most critical areas he believed de­
         Crimes Unit to the Fairfax County, Virginia, police in      served close watch: the Census Bureau’s 2010 decen­
         connection with its investigation of a Census employ­       nial operations, NOAA satellite programs, Depart-
         ee charged with murdering a man who was dating the          ment-wide IT security, and NTIA’s management of
         employee’s former girlfriend. OIG was initially asked       $2.5 billion in funding authorized by the Digital Tele­
         to join the investigation to seize government computer      vision Transition and Public Safety Act.
         equipment assigned to the defendant and examine it
         for evidence linking the employee to the crime. Work­       2010 Decennial Census
         ing with local police, OIG investigators subsequently
         seized a number of home computers at the defendant’s        The Inspector General told subcommittee members
         residence. We conducted a forensic analysis of 13           that the bureau’s plan to use handheld computers to
         computers and hundreds of removable disks, which            collect certain data was in serious jeopardy because
         revealed, among other things, that the defendant had        the $600 million Field Data Collection Automation
         been accessing the woman’s personal e-mail account          contract had yet to produce systems that could sup­
         for months and reading personal messages from the           port Census operations. He also discussed several
         victim. After a trial in Fairfax County Circuit Court in    nonautomated census programs in need of improve­


                                                                26
March 2008—Semiannual Report to Congress                                                                  Office of Inspector General




       ment that were not receiving proper attention because       Other Watch List Items
       the bureau has had to focus so much energy on the
       FDCA-related problems.                                      The IG also described several other oversight priori­
                                                                   ties the ofﬁce has added to its watch list:
       NOAA Satellites
                                                                       •	   NOAA’s Expanding Responsibilities for Protecting
       IG Zinser recounted some of the problems and chal­                   Oceans and Marine Resources. The Magnuson-Ste­
       lenges facing the Department and NOAA in complet­                    vens Fishery Conservation and Reauthorization
       ing the multibillion-dollar National Polar-orbiting Op­              Act of 2006 provides new authority to com­
       erational Environmental Satellite System (NPOESS)                    bat Illegal, Unreported, or Unregulated (IUU)
       and the next-generation Geostationary Operational                    ﬁshing, and the 2008 Omnibus Appropriations
       Environmental Satellite (GOES-R). Both systems will                  Act speciﬁes that the Secretary develop a list
       provide critical weather and environmental data, but                 of vessels and vessel owners engaged in IUU
       both have been scaled back because of signiﬁcant de­                 ﬁshing. NOAA’s use of these new authorities
       lays and ballooning cost estimates.                                  and its implementation of the 2008 appropria­
                                                                            tions requirement are important items for fol­
                                                                            low-up.

                                                                       •	   BIS’ Dual-Use Export Control System. In 2007,
                                                                            GAO added the Bureau of Industry and Se­
       The IG stressed that agency ofﬁcials and program                     curity’s dual-use export control system to its
       planners must maintain strong mechanisms for                         government-wide high-risk list because the
       promptly identifying and mitigating problems, and                    Department was unable to readily identify
       must quickly apprise the Secretary and Congress of                   weaknesses in the system or implement correc­
       any issues that threaten the timely, cost-effective com­             tive measures. OIG has carried out a substan­
       pletion of critical tasks.                                           tial amount of work in this area over the past
                                                                            9 years, and will continue monitoring the prog­
       Department-wide Information Security                                 ress of BIS and the Department in addressing
                                                                            this high-risk area.
       Mr. Zinser discussed the root cause of the Depart­
       ment’s material weakness in IT security: inadequate             •	   Department-wide Grant Oversight. OIG’s inven­
       processes for certifying and accrediting computer                    tory of criminal investigations contains cases
       systems. He reported that senior Department ofﬁcials                 involving grant recipients under investiga­
       are very aware of the need for improving the IT secu­                tion for converting grant funds to their own
       rity program and described their efforts to do so.                   personal use. Such activity indicates the need
                                                                            for stronger oversight. Mr. Zinser stated that
       NTIA’s Administration of Consumer Cou­                               he plans to follow up on this issue and report
       pon Program and Public Safety Grants                                 back to the subcommittee.

       The Inspector General gave a status report on NTIA’s
       efforts to help analog television viewers purchase digi­
       tal converter boxes in advance of the February 17,
       2009, switch to all-digital TV broadcasting. He also
       discussed OIG’s oversight of NTIA’s $1 billion grants
       program for interoperable communications projects
       designed to enhance state and local emergency re­
       sponse efforts. OIG staff will review the program’s
       management annually and conduct at least 25 ﬁnan­
       cial audits of funded programs over the next 4 years.


                                                                  27
Office of Inspector General	                                                              March 2008—Semiannual Report to Congress



        TABLES AND STATISTICS
        Statistical Overview
        TABLES                                                                                                   PAGE
        1. Investigative Statistical Highlights for this Period                                                     28
        2. Audit Resolution Follow-Up	                                                                              29
        3. Audit and Inspection Statistical Highlights for this Period	                                             29
        4. Audits with Questioned Costs	                                                                            29
        5. Audits with Recommendations that Funds Be Put to Better Use	                                             30

        APPENDIXES
        A. Report Types this Period 	                                                                               31
          A-1. Performance Audits                                                                                   31
           A-2. Financial Assistance Audits                                                                         31
           A-3. Financial Statements Audits                                                                         31
           A-4. Inspections and Evaluations                                                                         32
        B. Processed Audit Reports	                                                                                 32
           B-1. Processed Reports with Audit Findings                                                               33


        Table 1. Investigative Statistical Highlights for this Period

         Criminal Investigative Activities
         Arrests                                                                                                     4
         Indictments and informations                                                                                6
         Convictions                                                                                                14
         Personnel actions                                                                                           1
         Fines, restitutions, judgments, and other civil and administrative recoveries                         $12,072,102
         Allegations Processed
         Accepted for investigation                                                                                26
         Referred to operating units                                                                                5
         Evaluated but not accepted for investigation or referral                                                  43
         Total                                                                                                     74


        Audit Resolution and Follow-Up
        The Inspector General Act Amendments of 1988 re­                  Department Administrative Order 213-5, Audit Reso­
        quire us to present in this report those audits issued            lution and Follow-up, provides procedures for manage­
        before the beginning of the reporting period (Octo­               ment to request a modiﬁcation to an approved audit
        ber 1, 2007) for which no management decision had                 action plan or for a ﬁnancial assistance recipient to
        been made by the end of the period (March 31, 2008).              appeal an audit resolution determination. The follow­
        Six audit reports remain unresolved for this reporting            ing table summarizes modiﬁcation and appeal activity
        period (see page 34).                                             during the reporting period.




                                                                     28
March 2008—Semiannual Report to Congress                                                                                        Office of Inspector General



       Table 2. Audit Resolution Follow-Up
        Report Category                                                     Modiﬁcations                                              Appeals
        Actions pending (October 1, 2007)                                        0                                                      7
        Submissions                                                              1                                                      5
        Decisions                                                                1                                                      6
        Actions pending (March 31, 2008)                                         0                                                      6



       Table 3. Audit and Inspection Statistical Highlights for this Period

        Questioned Costs                                                                                                                $ 3,845,197*
        Value of audit recommendations that funds be put to better use                                                                       104,711
        Value of audit recommendations agreed to by management                                                                             4,236,568
       *This number includes costs questioned by state and local government auditors or independent public accountants.



       Table 4. Audits with Questioned Costs
                                                                                                                          Questioned Unsupported
        Report Category                                                                                Number
                                                                                                                            Costs       Costs
                Reports for which no management decision had been
        A.                                                                                                  22            $ 31,168,505           $ 6,724,891
                made by the beginning of the reporting period

        B.      Reports issued during the reporting period                                                  15               3,845,197                624,028

        Total reports (A+B) requiring a management decision during
                                                                                                            37             35,013,702               7,348,919
        the period

                Reports for which a management decision was made
        C.                                                                                                  16             11,383,909               2,806,979
                during the reporting period2

                i. Value of disallowed costs                                                                                 3,878,361                157,673


                ii. Value of costs not disallowed                                                                            7,960,548             2,649,306

                Reports for which no management decision had been
        D.                                                                                                  21             23,629,793              4,541,940
                made by the end of the reporting period
       NOTES:
       1
         Four audit reports included in this table are also included among reports with recommendations that funds be but to better use (see table 5). However, the 

       dollar amounts do not overlap. 

       2
         In Category C, lines i and ii do not always equal the total line C because resolution may result in values greater than the original recommendations.





                                                                                    29
Office of Inspector General                                                                                       March 2008—Semiannual Report to Congress



        Table 5. Audits with Recommendations that Funds Be Put to Better Use

         Report Category                                                                                                     Number                   Value

                 Reports for which no management decision had been made by the
         A.                                                                                                                        6               $ 456,405
                 beginning of the reporting period

         B.      Reports issued during the reporting period                                                                        1                  104,711


         Total reports (A+B) requiring a management decision during the period1                                                    7                  561,116

                 Reports for which a management decision was made during the report­
         C.                                                                                                                        6                  456,405
                 ing period2

                 i. Value of recommendations agreed to by management                                                                                  358,207


                 ii. Value of recommendations not agreed to by management                                                                              98,198

                 Reports for which no management decision had been made by the end
         D.                                                                                                                        1                  104,711
                 of the reporting period
       NOTES:
       1
         Four audit reports included in this table are also included among reports with questioned costs (see table 4). However, the dollar amounts do not overlap.
       2
         In Category C, lines i and ii do not always equal the total line C because resolution may result in values greater than the original recommendations.




        Deﬁnitions of Terms Used in the
        Tables
        Questioned cost: a cost questioned by OIG because                                 action to implement and complete the recommen­
        of (1) an alleged violation of a provision of a law,                              dation, including (1) reductions in outlays; (2) deob­
        regulation, contract, grant, cooperative agreement,                               ligation of funds from programs or operations; (3)
        or other agreement or document governing the ex­                                  withdrawal of interest subsidy costs on loans or loan
        penditure of funds; (2) a ﬁnding that, at the time of                             guarantees, insurance, or bonds; (4) costs not incurred
        the audit, such cost is not supported by adequate                                 by implementing recommended improvements related
        documentation; or (3) a ﬁnding that an expenditure                                to Commerce, a contractor, or a grantee; (5) avoidance
        of funds for the intended purpose is unnecessary or                               of unnecessary expenditures identiﬁed in preaward
        unreasonable.                                                                     reviews of contracts or grant agreements; or (6) any
                                                                                          other savings speciﬁcally identiﬁed.
        Unsupported cost: a cost that, at the time of the
        audit, is not supported by adequate documentation.                                Management decision: management’s evaluation
        Questioned costs include unsupported costs.                                       of the ﬁndings and recommendations included in the
                                                                                          audit report and the issuance of a ﬁnal decision by
        Recommendation that funds be put to better use:                                   management concerning its response.
        an OIG recommendation that funds could be used
        more efﬁciently if Commerce management took



                                                                                     30
March 2008—Semiannual Report to Congress                                               Office of Inspector General



       Appendix A. Report Types this Period
        Type                                              Number of Reports             Appendix Number
        Performance audits                                          2                           A-1
        Financial assistance audits                                 1                           A-2
        Financial statements audits                                 5                           A-3
        Inspections and systems evaluations                         2                           A-4
        Total                                                       10


       Appendix A-1. Performance Audits

                                                                                              Funds to Be Put
        Report Title                                       Report Number Date Issued
                                                                                               to Better Use
        National Oceanic and Atmospheric Administration

        Real Property Portfolio: Opportunities to              BSD-18256-8­
                                                                                 03/06/08             —
        Strengthen Management Accountability                      0001
        U.S. Patent and Trademark Ofﬁce

        USPTO Has Reasonable Controls Over Per­
                                                            CAR-18701-8­
        sonal Property, but Additional Improvements Are                          03/27/08             —
                                                               0001
        Needed



       Appendix A-2. Financial Assistance Audits

                                                                     Value of
                                           Report     Date Is­       Funds to     Federal     Federal Amount
                Report Title
                                           Number      sued         Be Put to     Amount       Unsupported
                                                                    Better Use
        National Institute of Standards and Technology
                                         CAR-18440­
        Chesapeake Perl, Inc., MD                   02/25/08             —        $ 866,894       $ 395,263
                                           8-0001



       Appendix A-3. Financial Statements Audits

                                                                                    Report
        Report Title                                                                              Date Issued
                                                                                    Number
        Ofﬁce of the Secretary
        Assessment of Information Technology Controls Supporting the Depart­       FSD-18530­
                                                                                                    10/05/07
        ment’s Financial Management Systems FY 2007 Financial Statement Audit        8-0001
                                                                                   FSD-18530­
        Department of Commerce’s FY 2007 Consolidated Financial Statements                          11/09/07
                                                                                     8-0002
        Department of Commerce’s FY 2007 Special Purpose Financial                 FSD-18530­
                                                                                                    12/12/07
        Statements                                                                   8-0003



                                                          31
Office of Inspector General                                                   March 2008—Semiannual Report to Congress



        Appendix A-3, continued
                                                                                    Report
         Report Title                                                                               Date Issued
                                                                                    Number
         U.S. Patent and Trademark Ofﬁce
         Assessment of Information Technology Controls Supporting USPTO’s          FSD-18531­
                                                                                                      10/05/07
         Financial Management Systems FY 2007 Financial Statement Audit              8-0001
                                                                                   FSD-18531­
         USPTO’s FY 2007 Financial Statements                                                         11/06/07
                                                                                     8-0002


        Appendix A-4. Inspections and Evaluations

                                                                                                   Funds to Be
                                                                 Report
         Report Title                                                          Date Issued         Put to Better
                                                                 Number
                                                                                                       Use
         National Oceanic and Atmospheric Administration
         Successful Oversight of GOES-R Requires Adherence
                                                            OSE-18291          11/20/2007               —
         to Accepted Satellite Acquisition Practices
         National Marine Sanctuary Program Protects Cer­
         tain Resources, But Further Actions Could Increase IPE-18592          02/12/2008               —
         Protection


        Appendix B. Processed Audit Reports

         The Ofﬁce of Inspector General reviewed and accepted 166 audit reports prepared by independent public
         accountants and local, state, and other federal auditors. The reports processed with questioned costs,
         recommendations that funds be put to better use, and/or nonﬁnancial recommendations are listed in
         Appendix B-1.
         Agency                                                                           Audits
         Economic Development Administration                                                 60
         International Trade Administration                                                  3
         National Institute of Standards and Technology*                                     39
         National Oceanic and Atmospheric Administration                                     25
         National Telecommunications and Information Administration                          4
         Ofﬁce of the Secretary                                                              1
         United States Patent and Trademark Ofﬁce                                            1
         Multiagency                                                                         33
         Total                                                                              166
        *Includes 35 ATP program-speciﬁc audits.




                                                           32
March 2008—Semiannual Report to Congress                                                 Office of Inspector General



       Appendix B-1 - Processed Reports with Audit Findings
                                                                        Funds to     Federal         Federal
                                               Report        Date
        Report Title                                                   Be Put to     Amount          Amount
                                               Number       Issued
                                                                       Better Use   Questioned     Unsupported
        Economic Development Administration
        Tri-County Economic Development        ATL-09999­
                                                            03/21/08       0         $ 57,158         $ 57,158
        District, WA                             8-3084
                                               ATL-09999­
        City of Akron, OH                                   03/26/08       0           12,618             0
                                                 8-3086
        Portable Practical Educational         ATL-09999­
                                                            03/26/08       0          197,343             0
        Preparation, Inc., AZ                    8-2988
        Vermont Council on Rural               ATL-09999­
                                                            03/26/08       0           43,878           43,878
        Development, Inc.                        8-3132
                                               ATL-09999­
        EDC Loan Corporation, MO                            03/28/08       0         1,163,349            0
                                                 8-2950
        National Institute of Standards and Technology
                                               ATL-09999­
        DAFCA, Inc., MA                                     03/13/08       0          190,748             0
                                                 8-3017
                                               ATL-09999­
        Icoria, Inc., NC                                    03/13/08       0          171,276             0
                                                 8-3122
                                               ATL-09999­
        NexTech Materials, Ltd., OH                         03/17/08       0          513,845             0
                                                 8-3113
                                               ATL-09999­
        Cinetec Landis Corporation, PA                      03/20/08       0           11,241           11,241
                                                 8-3121
                                               ATL-09999­
        Aether Wire & Location, Inc., CA                    03/31/08    104,711       268,938             0
                                                 8-3118
        National Oceanic and Atmospheric Administration
                                               ATL-09999­
        State of Louisiana                                03/26/08         0          144,000             0
                                                 8-2949
        State of Rhode Island and Providence   ATL-09999­
                                                          03/26/08         0          116,488          116,488
        Plantations                              8-2876
                                               ATL-09999­
        The JASON Project, VA                             03/26/08         0           57,421             0
                                                 8-2929
        Commonwealth of Puerto Rico,
                                               ATL-09999­
        Department of Natural and                         03/28/08         0           30,000             0
                                                 8-2927
        Environmental Resources




                                                             33
Office of Inspector General                                                             March 2008—Semiannual Report to Congress



        AUDITS UNRESOLVED FOR
        MORE THAN 6 MONTHS
        Census Bureau
        ITS Services, Inc. In March 2005, we reported that             contract and federal requirements, which caused us to
        3 of the 32 task orders awarded under an IT services           question more than $10.7 million in direct labor and
        contract were audited to determine whether the costs           other reimbursable costs.
        billed by the ﬁrm were reasonable, allowable, and allo­
                                                                       We have suspended audit resolution on both of these
        cable under contract terms and conditions and federal
                                                                       contract audits pursuant to an agreement with Cen­
        regulations. We found that the ﬁrm had failed to com­
                                                                       sus.
        ply with numerous contract and federal requirements,
        and questioned more than $8.5 million in direct labor          NIST
        and reimbursable costs.
                                                                       Computer Aided Surgery Inc., New York. An
        Computer & High Tech Management, Inc. We re­                   OIG audit of this NIST cooperative agreement (see
        ported in our September 2005 Semiannual Report (page           September 2004 issue, page 35, and March 2005 is­
        14) the results of audits of 2 of the 21 task orders           sue, page 33—ATL-16095) questioned costs totaling
        for another ﬁrm providing IT services to Census. We            $547,426 in inappropriately charged rent, utilities, and
        sought to determine whether the ﬁrm had complied               certain salary, fringe beneﬁt, and other expenses be­
        with contract terms and conditions and federal regu­           cause these costs were unallowable, in excess of bud­
        lations and had billed Census for work performed in            getary limits, or incorrectly categorized. This audit
        accordance with speciﬁcations of the task order. We            remains unresolved because we requested that NIST
        found that the ﬁrm failed to comply with numerous              postpone its submission of an audit resolution pro­
                                                                       posal.




                                                                  34
March 2008—Semiannual Report to Congress                                                         Office of Inspector General



       REPORTING REQUIREMENTS
       The Inspector General Act of 1978, as amended, speciﬁes reporting requirements for semiannual reports.
       The requirements are listed below and indexed to the applicable pages of this report.


       Section                                                                                              Page

       4(a)(2)
               Review of Legislation and Regulations                                         35-36

       5(a)(1)
               Signiﬁcant Problems, Abuses, and Deﬁciencies                                  11-27

       5(a)(2)
               Signiﬁcant Recommendations for Corrective Action                              11-27

       5(a)(3)
               Prior Signiﬁcant Recommendations Unimplemented                                  35

       5(a)4
                 Matters Referred to Prosecutive Authorities                                     28

       5(a)(5) and 6(b)(2)
   Information or Assistance Refused                                               36

       5(a)(6)
               Listing of Audit Reports                                                      31-33

       5(a)(7)
               Summary of Signiﬁcant Reports                                                 11-27

       5(a)(8)
               Audit Reports—Questioned Costs                                                  29

       5(a)(9)
               Audit Reports—Funds to Be Put to Better Use                                     30

       5(a)(10)
              Prior Audit Reports Unresolved                                                  36
       5(a)(11)
              Signiﬁcant Revised Management Decisions                                         36

       5(a)(12)               Signiﬁcant Management Decisions with Which OIG Disagreed                        36


       Section 4(a)(2): Review of Legislation                         Section 5(a)(3): Prior Significant
       and Regulations                                                Recommendations Unimplemented
       This section requires the inspector general of each            This section requires identiﬁcation of each signiﬁcant
       agency to review existing and proposed legislation             recommendation described in previous semiannual
       and regulations relating to that agency’s programs and         reports for which corrective action has not been com­
       operations. Based on this review, the inspector general        pleted. Section 5(b) requires that the Secretary trans­
       is required to make recommendations in the semian­             mit to Congress statistical tables showing the number
       nual report concerning the impact of such legislation          and value of audit reports for which no ﬁnal action
       or regulations on the economy and efﬁciency of the             has been taken, plus an explanation of the reasons
       management of programs and operations adminis­                 why recommended action has not occurred, except
       tered or ﬁnanced by the agency or on the prevention            when the management decision was made within the
       and detection of fraud and abuse in those programs             preceding year.
       and operations. Comments concerning legislative and
       regulatory initiatives affecting Commerce programs             To include a list of all signiﬁcant unimplemented rec­
       are discussed, as appropriate, in relevant sections of         ommendations in this report would be duplicative.
       the report.




                                                                 35
Office of Inspector General                                                         March 2008—Semiannual Report to Congress




        Information on the status of any audit recommen­           Section 5(a)(11): Significant
        dations can be obtained through OIG’s Ofﬁce of             Revised Management Decisions
        Audits.
                                                                   This section requires an explanation of the reasons
                                                                   for any signiﬁcant revision to a management decision
        Sections 5(a)(5) and 6(b)(2):
                                                                   made during the reporting period. Department Ad­
         Information or Assistance Refused                         ministrative Order 213-5, Audit Resolution and Fol­
        These sections require a summary of each report to         low-up, provides procedures for revising a manage­
        the Secretary when access, information, or assistance      ment decision. For performance audits, OIG must be
        has been unreasonably refused or not provided. There       consulted and must approve in advance any modiﬁca­
        were no instances during this semiannual period and        tion to an audit action plan. For ﬁnancial assistance
        no reports to the Secretary.                               audits, OIG must concur with any decision that would
                                                                   change the audit resolution proposal in response to an
                                                                   appeal by the recipient. The decisions issued on the six
        Section 5(a)(10): Prior Audit
                                                                   appeals of audit-related debts were ﬁnalized with the
        Reports Unresolved                                         full participation and concurrence of OIG.
        This section requires a summary of each audit report
        issued before the beginning of the reporting period        Section 5(a)(12): Significant
        for which no management decision has been made by          Management Decisions with
        the end of the reporting period (including the date        Which OIG Disagreed
        and title of each such report), an explanation of why a
        decision has not been made, and a statement concern­       This section requires information concerning any
        ing the desired timetable for delivering a decision on     signiﬁcant management decision with which the in­
        each such report. There were ﬁve Census reports and        spector general disagrees. Department Administrative
        one NIST report more than 6 months old.                    Order 213-5 provides procedures for elevating unre­
                                                                   solved audit recommendations to higher levels of De­
                                                                   partment and OIG management, including their con­
                                                                   sideration by an Audit Resolution Council. During this
                                                                   period no audit issues were referred to the council.




                                                              36
